      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




January 4, 2010

TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services

               /John Hapchuk/ for
FROM:          Joseph E. Vengrin
               Deputy Inspector General for Audit Services


SUBJECT:       Review of High-Dollar Payments for Inpatient Services Processed by Wisconsin
               Physicians Service for Calendar Years 2004 Through 2006—Hospitals With Five
               or More High-Dollar Payments (A-05-08-00051)


Attached is an advance copy of our final report on high-dollar payments for inpatient services
processed by Wisconsin Physicians Service for calendar years 2004 through 2006 for hospitals
with five or more high-dollar payments. We will issue this report to Wisconsin Physicians
Service within 5 business days. This audit was part of a nationwide review of payments for
inpatient services of $200,000 or more (high-dollar payments).

Our objective was to determine whether selected high-dollar Medicare payments that Wisconsin
Physicians Service made to hospitals for inpatient services were appropriate.

Of the 520 high-dollar payments that Wisconsin Physicians Service made to hospitals for
inpatient services for calendar years 2004 through 2006, 42 were appropriate. The 478
remaining payments included net overpayments totaling $4,718,273, which the hospitals had not
refunded prior to the start of our audit.

Contrary to Federal guidance, hospitals inaccurately reported the number of billing units for
blood clotting factor, reported incorrect diagnosis and procedure codes, and reported excessive
charges that resulted in inappropriate outlier payments. Hospitals attributed most of the incorrect
claims to data entry errors and insufficient documentation. Wisconsin Physicians Service made
these incorrect payments because neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place to detect and prevent the overpayments.

We recommend that Wisconsin Physicians Service:

       recover the $4,718,273 in identified net overpayments,
Page 2 – Charlene Frizzera


       use the results of this audit in its provider education activities related to data entry
        procedures and proper documentation, and

       consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

In written comments on our draft report, Wisconsin Physicians Service described corrective
actions that it had taken or planned to take to implement our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Stephen Slamar, Acting Regional Inspector General for Audit Services, Region V, at
(312) 353-7905 or through email at Stephen.Slamar@oig.hhs.gov. Please refer to report number
A-05-08-00051.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Office of Audit Services, Region V
                                                                         233 North Michigan Avenue
                                                                         Suite 1360
                                                                         Chicago, IL 60601

January 11, 2010

Report Number: A-05-08-00051

Mr. Guy Ringle
Senior Vice President, Medicare
Wisconsin Physicians Service
P.O. Box 1787
Madison, Wisconsin 53708-1787

Dear Mr. Ringle:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of High-Dollar Payments for Inpatient Services
Processed by Wisconsin Physicians Service for Calendar Years 2004 Through 2006—Hospitals
With Five or More High-Dollar Payments.” We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(312) 353-7905 or through email at Stephen.Slamar@oig.hhs.gov. Please refer to report number
A-05-08-00051 in all correspondence.

                                             Sincerely,



                                             /Stephen Slamar/
                                             Acting Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Guy Ringle


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL


   REVIEW OF HIGH-DOLLAR
   PAYMENTS FOR INPATIENT
   SERVICES PROCESSED BY
WISCONSIN PHYSICIANS SERVICE
  FOR CALENDAR YEARS 2004
 THROUGH 2006—HOSPITALS
     WITH FIVE OR MORE
   HIGH-DOLLAR PAYMENTS



                       Daniel R. Levinson
                        Inspector General

                         January 2010
                         A-05-08-00051
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS’s Common Working File to process claims. The Common Working File can detect certain
improper payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges based on the diagnosis-related group to which a beneficiary’s stay is
assigned. The “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 3, section 10.1,
requires that hospitals submit claims on the appropriate forms for all provider billings, and
chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

The diagnosis-related group payment is, with certain exceptions, payment in full to the hospital
for all inpatient services. Section 6011 of the Omnibus Budget Reconciliation Act of 1989
(P.L. No. 101-239) provides that prospective payment system hospitals receive payment, in
addition to the basic diagnosis-related group payment, for blood clotting factor administered to
hemophilia inpatients. Also, section 1886(d)(5)(A)(ii) of the Act provides for an additional
payment, known as an outlier payment, to hospitals for cases incurring extraordinarily high costs.

During calendar years 2004 through 2006, Mutual of Omaha Insurance Company was a fiscal
intermediary for providers in all States except New York. Mutual of Omaha Insurance Company
processed approximately 6.9 million inpatient claims during this period, 520 of which resulted in
payments of $200,000 or more (high-dollar payments) to hospitals that each received 5 or more
such payments. In November 2007, Wisconsin Physicians Service assumed the fiscal
intermediary operations of Mutual of Omaha Insurance Company.

OBJECTIVE

Our objective was to determine whether selected high-dollar Medicare payments that Wisconsin
Physicians Service made to hospitals for inpatient services were appropriate.

SUMMARY OF FINDING

Of the 520 high-dollar payments that Wisconsin Physicians Service made to hospitals for
inpatient services for calendar years 2004 through 2006, 42 were appropriate. The 478
remaining payments included net overpayments totaling $4,718,273, which the hospitals had not
refunded prior to the start of our audit.




                                                 i
Contrary to Federal guidance, hospitals inaccurately reported the number of billing units for
blood clotting factor, reported incorrect diagnosis and procedure codes, and reported excessive
charges that resulted in inappropriate outlier payments. Hospitals attributed most of the incorrect
claims to data entry errors and insufficient documentation. Wisconsin Physicians Service made
these incorrect payments because neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place to detect and prevent the overpayments.

RECOMMENDATIONS

We recommend that Wisconsin Physicians Service:

       recover the $4,718,273 in identified net overpayments,

       use the results of this audit in its provider education activities related to data entry
        procedures and proper documentation, and

       consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

WISCONSIN PHYSICIANS SERVICE COMMENTS

In written comments on our draft report, Wisconsin Physicians Service described corrective
actions that it had taken or planned to take to implement our recommendations. Wisconsin
Physicians Service’s comments are included in their entirety as the Appendix.




                                                  ii
                                                 TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicare Fiscal Intermediaries....................................................................1
              Claims for Inpatient Services.......................................................................1
              Wisconsin Physicians Service......................................................................2

         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2
              Objective ......................................................................................................2
              Scope............................................................................................................2
              Methodology ................................................................................................2

FINDING AND RECOMMENDATIONS.......................................................................3

          FEDERAL REQUIREMENTS................................................................................3

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................4

          RECOMMENDATIONS.........................................................................................4

          WISCONSIN PHYSICIANS SERVICE COMMENTS .........................................4

APPENDIX

          WISCONSIN PHYSICIANS SERVICE COMMENTS




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part A claims submitted by hospitals. The intermediaries’ responsibilities include determining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Intermediaries use the Fiscal Intermediary Standard System and CMS’s Common
Working File to process hospitals’ inpatient claims. The Common Working File can detect
certain improper payments during prepayment validation.

In calendar years (CY) 2004 through 2006, fiscal intermediaries processed and paid
approximately 40.6 million inpatient claims, 8,287 of which resulted in payments of $200,000 or
more (high-dollar payments).

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay. The “Medicare Claims
Processing Manual,” Pub. No. 100-04, chapter 3, section 10.1, requires that hospitals submit
claims on the appropriate forms for all provider billings, and chapter 1, section 80.3.2.2, requires
that claims be completed accurately to be processed correctly and promptly.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239) provides
that PPS hospitals receive payment, in addition to the basic DRG payment, for blood clotting
factor administered to hemophilia inpatients. Also, section 1886(d)(5)(A)(ii) of the Act provides
for an additional Medicare payment, known as an outlier payment, to hospitals for cases
incurring extraordinarily high costs. 1 The fiscal intermediary identifies outlier cases by
comparing the estimated costs of a case with a DRG-specific fixed-loss threshold. 2 To estimate
the costs of a case, the fiscal intermediary uses the Medicare charges that the hospital reports on
its claim and the hospital-specific cost-to-charge ratio. Inaccurately reporting charges could lead
to excessive outlier payments.
1
 Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s inpatient stay
substantially exceed the DRG payment.
2
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.



                                                         1
Wisconsin Physicians Service

During CYs 2004 through 2006, Mutual of Omaha Insurance Company was a fiscal intermediary
for providers in all States except New York. Mutual of Omaha Insurance Company processed
approximately 6.9 million inpatient claims during this period, 769 of which resulted in
high-dollar payments. In November 2007, Wisconsin Physicians Service assumed the fiscal
intermediary operations of Mutual of Omaha Insurance Company.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected high-dollar Medicare payments that Wisconsin
Physicians Service made to hospitals for inpatient services were appropriate.

Scope

We reviewed 520 of the 769 high-dollar payments for inpatient claims that Wisconsin Physicians
Service processed during CYs 2004 through 2006. The 520 high-dollar payments, which totaled
$145,930,365, were made to hospitals that each received 5 or more such payments during our
audit period. We separately reviewed the 249 remaining high-dollar payments totaling
$65,511,072 that were made to hospitals that each received fewer than 5 such payments (report
number A-05-08-00061).

We limited our review of Wisconsin Physicians Service’s internal controls to those applicable to
the 520 high-dollar claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from CMS’s National
Claims History file, but we did not assess the completeness of the file.

Our fieldwork included contacting Wisconsin Physicians Service, located in Madison,
Wisconsin, and the hospitals that received the high-dollar payments.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and guidance;

       used CMS’s National Claims History file to identify inpatient claims with high-dollar
        Medicare payments;

       reviewed available Common Working File claim histories for the 520 high-dollar
        payments to determine whether the claims had been canceled and superseded by revised
        claims and whether payments remained outstanding at the time of our fieldwork;




                                                2
       contacted the hospitals that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect and
        whether the hospitals agreed that refunds were appropriate; and

       validated with Wisconsin Physicians Service that partial inappropriate payments occurred
        and refunds were appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                               FINDING AND RECOMMENDATIONS

Of the 520 high-dollar payments that Wisconsin Physicians Service made to hospitals for
inpatient services for CYs 2004 through 2006, 42 were appropriate. The 478 remaining
payments included net overpayments totaling $4,718,273, which the hospitals had not refunded
prior to the start of our audit.

Contrary to Federal guidance, hospitals inaccurately reported the number of billing units for
blood clotting factor, reported incorrect diagnosis and procedure codes, and reported excessive
charges that resulted in inappropriate outlier payments. Hospitals attributed most of the incorrect
claims to data entry errors and insufficient documentation. Wisconsin Physicians Service made
these incorrect payments because neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place to detect and prevent the overpayments.

FEDERAL REQUIREMENTS

Section 1815(a) of the Act prohibits Medicare payment for claims not supported by sufficient
documentation. The “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 3, section
10.1, requires that hospitals submit claims on the appropriate forms for all provider billings, and
chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239) provides
that PPS hospitals receive an additional payment for the cost of administering blood clotting
factor to Medicare beneficiaries with hemophilia during an inpatient stay. 3 The payment is based
on a predetermined price per unit of clotting factor multiplied by the number of units provided.


3
 Section 6011(d) was amended by section 13505 of the Omnibus Budget Reconciliation Act of 1993 (P.L. No. 103-
66) and section 4452 of the Balanced Budget Act of 1997 (P.L. No. 105-33) effective for discharges occurring on or
after June 19, 1990, and before October 1, 1994, and for discharges occurring on or after October 1, 1997,
respectively.




                                                        3
Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS provides
for these additional payments, as specified in 42 CFR § 412.80, to hospitals for covered inpatient
hospital services furnished to a Medicare beneficiary if the hospital’s charges, as adjusted by the
hospital-specific cost-to-charge ratio, exceed the DRG payment for the case.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Wisconsin Physicians Service made 478 net overpayments totaling $4,718,273, which hospitals
had not refunded prior to the start of our audit. The overpayments involved hospital claims
submitted with inaccurate data, including the incorrect number of billing units for blood clotting
factor, incorrect diagnosis and procedure codes, and excessive charges that resulted in
inappropriate outlier payments.

Hospitals attributed most of the incorrect claims to data entry errors and insufficient
documentation. Wisconsin Physicians Service made these inappropriate payments because
neither the Fiscal Intermediary Standard System nor the Common Working File had sufficient
edits in place to detect and prevent these types of inappropriate payments. In effect, CMS relied
on hospitals to notify the fiscal intermediaries of inappropriate payments and on beneficiaries to
review their “Medicare Summary Notice” and disclose any inappropriate payments. 4

RECOMMENDATIONS

We recommend that Wisconsin Physicians Service:

        recover the $4,718,273 in identified net overpayments,

        use the results of this audit in its provider education activities related to data entry
         procedures and proper documentation, and

        consider implementing controls to identify and review all payments greater than
         $200,000 for inpatient services.

WISCONSIN PHYSICIANS SERVICE COMMENTS

In written comments on our draft report, Wisconsin Physicians Service described corrective
actions that it had taken or planned to take to implement our recommendations. Wisconsin
Physicians Service’s comments are included in their entirety as the Appendix.




4
 The fiscal intermediary sends a “Medicare Summary Notice” to the beneficiary after the hospital files a claim for
Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the
amount due from the beneficiary.



                                                         4
APPENDIX
                                                                                                                Pag e 1 of2



  APPENDIX: WISCONSIN PHYSICIANS SERVICE COMMENTS 




   c/I#sj
-,,-,- -7 	                                                                                    Med icare

 September 17, 2009



 Mr. Marc Gustafson
 Regional Inspector General for Audit Service, 

 Office of Audit Services 

 233 North Michigan A venue
 Chicago,IL 60601

 RE : Office of Inspector General (010) Draft Report - A-05-08-00051

 IXar Mr. Gustafson,

 This leiter is in response to the 010 draft report titled " Review of High_Dollar Payments fOT
 Inpatient Services Processed by Wiseonsin Physicians Service for Calendar years 2004
 Through 2006 - Hospitals With Five or More High-Dollar Payments."

 The OIG reviewed 520 high_dollar payments that Wiseonsin Physicians S,;rvicc (WPS) made
 to hospitals for inpatient services for calendar year> 2004 through 2006. A net overpayment
 of $4,71 8,273 was identified. The 010 draft refXIrt indicates that "'hospilal.< itl(1CCW(1lely
 r2parled I"e number ofbilling units for blood dOlling fa<'tor, reported in<"Orl"ecl diagrwsis
 and procedure codes, and upart~d exussi,-e c""rge.-I/,a/ resulled in inappropri(1le outlier
 payments. Hospitals aliribUled mOSI ofI"e incorrect claims 10 data entry ~rror$ and
 i".\u!fidenl do<:umcntaiion. Wisconsin Physician.< Se"iu made Ihese incorrecl paymmls
 because neither the Fiscal [mermediary S/(lndard SyStem nor the Commun Worting File had
 sufficient edits in place If) dC/eCl and prevenl rhe overpaymenls. "

 010 Re<:ommendations!o WPS :

    • 	 reCUWr/he $4, 718,273 in identified net overpaymenl$,
    • 	 use Ihe rem/I$ afthis audil in ils prm'ider edl,calian ac/i,ilie$ reluled 10 data enlry
        procedures und proper documenlal;un, "nd
    • 	 consider implementing controls to identifY and review all payments greater Ihan
        $200.(){){) for inpatient services.

 WPS is in the process of adjusting the claions identified in this revicw, within the limitations
 ofthe four year reopening period. and intends to recoup the associated overpayments as soon
 as is feasible. We will be utilizing    me
                                        resuits of this audit, where applicable, in future
 educational activit ies.



                   . -F'n,..-... _
                    p.o. 80, 17&7 .   Madison,
                                                  ' '''''_ CtKpo,.,.,. _
                                                 Wlll/01 .   """"* 5Oe·2.1, ..111
                                                                                    ... CMs   _co   ~ ".;tQl"
                                                                                              Page 2   ofl




As a claim reimbursement edit within FISS is not currently available, WI'S is implementing a
pre--pay review of claims with charges greater than $250.000 and a post_pay rev iew ofhigh
dol lar claim, with total reimbursement greater than $200,000.

If you have any questions or need additional information, please   cont~t   me at 402-35 1-6915.

Sincerciy,



Mark DeFoil
Director, Contract Coordination

cc: 	 John Phdps, CMS
     Lisa Gosch.n, eMS
     Stephen Slamar, 010
